April 1 to September 30, 2011
PAGE INTENTIONALLY LEFT BLANK
                    PEACE CORPS
         OFFICE OF INSPECTOR GENERAL
                                      Vision:
Provide high impact work products that agency management acts upon to increase
                 the Peace Corps‘ efficiency and effectiveness.
                                     Mission:
    Through audits, evaluations, and investigations, OIG provides independent
oversight of agency programs and operations in support of the goals set forth in the
          Peace Corps Act while making the best use of taxpayer dollars.

      Promotes integrity, efficiency, effectiveness, and economy
      Prevents and detects waste, fraud, abuse, and mismanagement
      Identifies risk and vulnerabilities and offers expert assistance to improve the
      Peace Corps‘ programs and operations



 Established in February 1989, OIG receives its legal authority from the Inspector
  General Act of 1978, as amended. The law requires that OIG fully and currently
inform the Peace Corps Director and the Congress about problems and deficiencies
     identified by OIG relating to the administration of agency programs and
                                     operations.




              Semiannual Report to Congress

                  April 1 – September 30, 2011
PAGE INTENTIONALLY LEFT BLANK
                                       PEACE CORPS OFFICE OF INSPECTOR GENERAL


                                                  Table of Contents
Highlights from this Report ..........................................................................................................1
       Message from the Inspector General ...................................................................................... 1
Management and Administration ................................................................................................4
       Agency Context ...................................................................................................................... 4
       Congressional Testimonies ..................................................................................................... 4
       OIG Staffing............................................................................................................................ 4
       OIG Organizational Chart ....................................................................................................... 6
Advice and Assistance Provided to the Agency and Others ......................................................8
       Management Advisory Report: Mitigating a Potential Electrical Safety Hazard ................... 8
       Status of PC/Morocco: Assessment of Medical Care ............................................................. 8
       OIG Participation in MS 271 Training ................................................................................... 8
       The Peace Corps Senior Policy Committee ............................................................................ 9
       Inquiry and Assistance with a Volunteer Death at a Post in West Africa .............................. 9
       OIG Participation in Overseas Staff Training ......................................................................... 9
       Review of Legislation and Regulations .................................................................................. 9
Management and Performance Challenges ...............................................................................12
       Inspector General‘s Statement .............................................................................................. 12
Audits ............................................................................................................................................20
   Agencywide Audits ................................................................................................................... 21
       Peace Corps Fiscal Year 2011 Financial Statement Audit ................................................... 21
       Annual Review of Peace Corps Fiscal Year 2011 Information Security Program ............... 21
   Post Audits ................................................................................................................................ 21
       PC/Albania: Audit................................................................................................................. 21
       PC/Rwanda: Audit ................................................................................................................ 22
       PC/Panama: Audit................................................................................................................. 23
Evaluations ...................................................................................................................................26
   Country Program Evaluations ................................................................................................... 27
       PC/Cambodia: Country Program Evaluation ........................................................................ 27
       PC/Romania: Country Program Evaluation .......................................................................... 28
       PC/Swaziland: Country Program Evaluation........................................................................ 28
       PC/Liberia: Country Program Evaluation ............................................................................. 29
Investigations ................................................................................................................................32
   Legacy Cases ............................................................................................................................ 33
       Homicide Investigation at a Post in Central Africa .............................................................. 33
   Criminal and Misconduct Related Investigations ..................................................................... 33
       Arrest of Former Peace Corps Volunteer.............................................................................. 33
       Misuse of Government Property/Unauthorized Medical Treatment at a Post in Europe ..... 33
       PROTECT Act Violation at a Post in Eastern Europe .......................................................... 34
       PROTECT Act Allegation at a Post in Eastern Europe ........................................................ 34
       PROTECT Act Violation at a Post in the Pacific ................................................................. 34
       Sexual Assault at a Post in Central America ........................................................................ 35
       Sexual Assault at a Post in Central America ........................................................................ 35
       Conflict of Interest Allegation at a Post in the Caribbean .................................................... 35
       Conflict of Interest Allegation at a Post in Europe ............................................................... 35
       Misuse of Government Computer and Sexual Assault at a Post in the South Pacific .......... 35
       Misuse of Government Computer at a Post in Southern Africa ........................................... 36
       Fraternization Allegation at a Post in South America .......................................................... 36
       Improper Conduct by Volunteers at a Post in Southeast Asia .............................................. 36
       Drug Use by Multiple Volunteers at a Post in Central America........................................... 36
       Drug Distribution by a Volunteer at a Post in Eastern Europe ............................................. 36
       Improprieties Allegation at a Post in Central America ......................................................... 37
       Release of Confidential Information Allegation at Headquarters......................................... 37
Tables ............................................................................................................................................40
       1: List of Reports: Audits and Program Evaluations ............................................................ 40
       2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use ......... 41
       3: Status of Reports Issued by OIG with Questioned and Unsupported Costs ..................... 42
       4: Status of Reports Issued by OIG with Funds to be Put to Better Use .............................. 43
       5: Recommendations on which Corrective Action has not been Completed........................ 44
       6: Summary of Investigative Activities ................................................................................ 46
       7: Summary of Hotline and Other Complaints ..................................................................... 47
       8: References to Reporting Requirements of the Inspector General Act .............................. 48
Appendices ....................................................................................................................................50
   A: Reporting of Peer Reviews .................................................................................................. 50
   B: Contract Audit Reports ........................................................................................................ 50
   C: IG Congressional Testimony................................................................................................ 51
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL




                        Highlights from this Report
                            Message from the Inspector General


                          I am pleased to present the Peace Corps Office of Inspector General‘s
                          (OIG) Semiannual Report to Congress (SARC) for the period of April
                          1–September 30, 2011. On May 11, I testified before the U.S. House
                          Committee on Foreign Affairs at a hearing titled, ―Peace Corps at 50,‖
                          which focused on Volunteer safety and security. My testimony outlined
                          OIG‘s role in providing oversight of the safety and security function,
                          and the work we have done in this area. Despite agency progress in
                          implementing recommendations, our audits and evaluations continue to
                          highlight instances of weak management oversight and inconsistent
                          implementation of the agency‘s safety and security program. My
                          complete testimony before the committee is included in Appendix C
and is also available on our website.

In August, I received an invitation to testify before the U.S. Senate Committee on Foreign
Relations, Subcommittee on Western Hemisphere, Peace Corps, and Global Narcotics Affairs at
a hearing titled, ―Peace Corps: The Next 50 Years‖ scheduled for October. I will provide my
perspectives on the management challenges confronting the Peace Corps and strategies and
recommendations to address them. The full testimony will be available on our website.

As the result of an OIG investigation, returned Peace Corps Volunteer Jesse Osmun, who served
in South Africa, was arrested on August 4 in Connecticut for allegedly violating the Prosecuting
Remedies and Tools against the Exploitation of Children Today (PROTECT) Act. Osmun is
charged in a federal criminal complaint with traveling from the United States to South Africa to
engage in illicit sexual conduct with multiple children who were all younger than 6 years of age.
A Peace Corps OIG criminal investigator, in cooperation with agents from the Department of
Homeland Security, executed search and arrest warrants for Mr. Osmun, who remains in custody
while the investigation continues.

Although the Peace Corps continues to streamline operations and improve the technology that
supports key business processes and critical Volunteer support functions, it is constrained by
limited resources and inadequate planning. Given its new fiscal realities, the Peace Corps‘
prospects for continued growth and expansion are uncertain. However, the number of Volunteers
serving increased from 8,780 at the end of FY 2010 to nearly 9,100 at the end of FY 2011. This
figure represents the highest Volunteer strength in 40 years. As a result, the agency still requires
improvements in critical mission areas such as: Volunteer medical care; safety and security; the
processes that enable the agency to deliver Volunteers to the field, internally referred to as the
―Volunteer Delivery System‖; document management; and the accessibility of useful and
accurate data, which is discussed in detail in the ―Management and Performance Challenges‖
section.
April 1 to September 30, 2011                                                               1
During this reporting period we issued three post audit and four post evaluation reports and our
investigative staff closed nine investigations.

The Audit Unit completed reports on the post audits of Albania, Panama, and Rwanda. At
headquarters, the Audit Unit continued work on the agency‘s process for formulating and
executing its budget, and on the review of the agency‘s management of external funds and grants
for Volunteer projects. A final audit report on the Mid-Atlantic recruiting office is due out in
November. In addition, the Audit Unit initiated an audit of the management of the 50th
anniversary program and post audits of Costa Rica, Lesotho, and Mali.

The Evaluation Unit completed reports on program evaluations conducted in Cambodia, Liberia,
Romania, and Swaziland. Final reports on program evaluations of Fiji and the Kyrgyz Republic
are due soon and post evaluations of Uganda, China, and Peru are underway. The Evaluation
Unit continued work on evaluating the rule that limits staff terms known as the ―Five-Year Rule‖
and a review on the agency‘s implementation of guidelines and protocols related to Volunteer
victims of sexual assaults. Both reports have garnered significant interest from Congress and I
expect to be able to issue preliminary reports in the early part of FY 2012.

The Investigation Unit has also achieved significant gains in its Federal Employees‘
Compensation Act (FECA) investigations. The Department of Labor Office of Workers
Compensation in Jacksonville, Florida, finalized a settlement involving an overpayment of
benefits for a Volunteer‘s spouse. The settlement included the repayment of approximately
$15,000 to the U.S. government. In addition, two OIG FECA cases await Assistant United States
Attorney prosecutorial consideration.

During the reporting period, I was elected co-chair of Inspections and Evaluations of the Council
of Inspectors General on Integrity and Efficiency (CIGIE). In addition, CIGIE announced that
we will receive an award of excellence for our April 2010 Audit of the Volunteer Safety and
Security Program.




      2                                                  Semiannual Report to Congress
Management and Administration




OIG Returned Peace Corps Volunteers Left to right: Lisa Chesnel (Panama), Reuben
Marshall (Côte d’Ivoire), Danel Trisi (Niger), Jim O’Keefe (Cameroon, Chad, and Rwanda),
Steve Kaffen (Russia), Susan Gasper (Russia Far East), and Jerry Black (Comoros
Islands). Not pictured: Sarah Gerwin (Romania).
                     Management and Administration

Agency Context

As of September 30, 2011, 9,095 Peace Corps Volunteers and trainees were serving in 76
countries at 70 posts. This total includes 635 Volunteers and trainees funded by the President‘s
Emergency Plan for AIDS Relief (PEPFAR) to work on HIV/AIDS projects at 17 posts and 138
Peace Corps Response Volunteers serving in short-term assignments in 38 countries (35 posts).

The Volunteers and their programs are supported by 900 American direct-hire staff: 200
overseas; 114 in the regional recruiting offices; and the remaining 586 at headquarters.
Approximately 2,200 locally-hired personnel complete post staffing. The Peace Corps also has
corporate contracts domestically and overseas, principally for guard services and training, and
hires expert consultants, largely for training and financial management.


Congressional Testimonies

On May 11, 2011, Inspector General Kathy A. Buller testified before the U.S. House Committee
on Foreign Affairs at a hearing titled ―Peace Corps at 50,‖ which focused on Volunteer safety
and security. The full testimony is included in Appendix C and is also available on the IG
website:
http://multimedia.peacecorps.gov/multimedia/pdf/about/leadership/ig/Kathy_A._Buller_Inspector_General_Testimo
ny.pdf


OIG Staffing

Sarah Gerwin joined OIG as chief administrative officer in July 2011. She transferred from the
Office of the Chief Financial Officer/Global Accounts Payable (OCFO/GAP) where she had
served since 2008. In OCFO/GAP she was the financial management officer responsible for all
headquarters payments and travel reimbursement certifications. She was also responsible for
drafting, implementing, and training staff on policy and procedural changes related to contract
management, transportation, travel, and shipping. Prior to becoming a Peace Corps employee,
Gerwin was a vice president with JP Morgan Chase in London, England, and Bucharest,
Romania. She was a global client relationship manager at Global Investor Services, a credit and
portfolio officer for the Global Investment Bank/Transaction and Portfolio Management Group,
and corporate finance manager for the Bucharest, Romania, branch office. Gerwin served as a
Peace Corps Volunteer in the first group of small business development Volunteers sent to
Romania (1993-1995). Her secondary activity as a Volunteer was to establish the Special
Olympics in Romania. She holds a bachelor‘s degree in management from Fairfield University
and a Master of Theology (Christian Spirituality) from the University of London, Heythrop
College.


       4                                                       Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL

Waheed Nasser joined OIG as an auditor in June 2011. He previously worked as an auditor with
the Special Inspector General for Iraq Reconstruction and the Special Inspector General for
Afghanistan Reconstruction, where he conducted audits to ensure contract recipients had
adequate controls to ensure that federal funds were accurately used. Nasser received an Award
for Excellence from the Executive Council on Integrity & Efficiency in recognition of providing
the U.S. Congress, the Secretary of State, the Secretary of Defense, and the American people
with sustained oversight of the U.S. Embassy‘s anticorruption efforts in Iraq. Furthermore, he
received the Secretary of Defense Medal for the Global War on Terrorism. From 2001 to 2006,
Nasser served as an auditor with Peace Corps OIG, conducting performance audits that involved
examining administrative and financial operations of Peace Corps posts in more than 17
countries. He also developed and trained designated staff to use a tracking system that tracked
the status of recommendations, including questioned costs and funds to be put to better use.
Nasser is a certified public accountant and earned a bachelor‘s degree in accounting in Egypt and
a certificate in accounting from University of California, Los Angeles. He is fluent in Arabic.

Steve Kaffen, former senior auditor, left OIG in July. He was with OIG for almost eight years.
He is now working in a similar capacity at the Securities and Exchange Commission.

Robin Walker, office administrator, left OIG in July. She was with OIG for over nine years.




April 1 to September 30, 2011                                                            5
OIG Organizational Chart

                                       Inspector General
                                        Kathy A. Buller


                                      Deputy IG and Legal
                                           Counsel
                                        Joaquin Ferrao


                                                   Chief Administrative        Administrative
                        Executive Assistant                                      Assistant
                                                          Officer
                           Lisa Chesnel                                           vacant
                                                   Sarah O'Neill Gerwin



            AIG/Investigations           AIG/Audits              AIG/Evaluations
            Geoffrey Johnson            Bradley Grubb              Jim O'Keefe



                  Sr. Investigator              Sr. Auditor               Sr. Evaluator
                Joseph Bodensteiner           Snehal Nanavati             Jeremy Black



                  Sr. Investigator             Sr. Auditor                Sr. Evaluator
                   Joyce Shores               Waheed Nasser               Susan Gasper



                   Sr. Investigator             Sr. Auditor            Sr. Evaluator
                    Mark Supple               Joseph Wagner           Reuben Marshall



                 Criminal Research                                     Sr. Evaluator
                                                  Expert
                     Specialist                                       April Thompson
                                                Jeffrey Lee
                  Jeffrey Reichert                                         Miller



                                                Sr. Auditor            Sr. Evaluator
                                                  vacant             Heather Robinson



                                                                      Program Analyst
                                                                        Danel Trisi



     6                                                        Semiannual Report to Congress
Advice and Assistance Provided to the
Agency and Others




PC/Ukraine staff members Valya Pyrozhko and Oleksiy Yegorov present traditional
greeting bread.
               Advice and Assistance Provided to the
                        Agency and Others

Management Advisory Report: Mitigating a Potential Electrical Safety Hazard

While conducting an investigative inquiry at an overseas post, an OIG review at a Volunteer‘s
residence disclosed faulty substandard electrical wiring that is common in West Africa.
Volunteers informed OIG that when electrical appliances were used, ―sparks would fly.‖ To
alleviate potential problems, Consumer Protection Safety Commission electrical engineers
recommended that the Peace Corps provide Volunteers worldwide with portable ground fault
circuit interrupters (GFCIs). OIG subsequently issued a management advisory report concerning
this matter to the Peace Corps Director.


Status of PC/Morocco: Assessment of Medical Care

In its October 2010-March 2011 SARC, OIG reported that all recommendations related to this
assessment had been closed. However, OIG has continued to follow these remediation actions
and has concerns that corrective actions related to the oversight of the Volunteer Health System
have not been implemented or have been delayed. For instance, due to resource constraints
during FY 2011, the agency did not hire the required number of medical staff at headquarters to
perform oversight and quality assurance functions; implement systems that could provide more
effective medical screening; increase clinical oversight through its more rigorous medical chart
review process (currently only a small fraction of charts are being submitted by the posts and
reviewed by clinical staff at headquarters). Nor did it implement an electronic health record
system, which would facilitate clinical oversight and case management by headquarters clinical
staff and provide data to inform management decisions and policies.


OIG Participation in MS 271 Training

OIG actively participated in the agency‘s overseas staff training for country directors, directors
of management and operations, and directors of programming and training. It outlined agency
policy in the Peace Corps Manual, section 271, concerning the confidential handling of
Volunteer allegations. The training explored common scenarios that staff might encounter. In
addition, it focused on ensuring the safety of Volunteers when making an allegation, keeping
information confidential, and on how and under what circumstances staff should report
allegations to OIG, agency management, and other individuals, such as U.S. Embassy regional
security officers.




       8                                                  Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL


The Peace Corps Senior Policy Committee

OIG continued to provide advice and assistance to the Peace Corps Senior Policy Committee by
commenting on drafts of new or updated policies and procedures. The agency has been engaged
in a robust effort to update and, where appropriate, develop policies and procedures. OIG‘s
proactive engagement is intended to help support efforts to improve the effectiveness and
efficiency of Peace Corps programs and operations. Some of the proposed revisions to policies
are in response to earlier OIG recommendations.


Inquiry and Assistance with a Volunteer Death at a Post in West Africa

As reported during a previous SARC reporting period, an Armed Forces Institute of Pathology
(AFIP) medical examiner requested OIG‘s assistance in uncovering circumstances surrounding
the unexplained death of a Volunteer in Africa. The Volunteer was found dead at her residence,
with no indication of malfeasance or foul play, per the police report. An OIG investigator
traveled to the deceased Volunteer‘s site location, coordinated with the U.S. Embassy and local
authorities, conducted interviews, reviewed records, and developed a timeline of activities. The
OIG inquiry was able to assist the AFIP by ruling out several possible scenarios and
documenting the circumstances surrounding the death of the Volunteer.


OIG Participation in Overseas Staff Training

OIG auditors and evaluators presented best practices and common deficiencies noted by OIG to
overseas personnel. The auditors and evaluators led sessions during overseas staff training for
country directors, directors of programming and training, and directors of management and
operations. The presentations focused on how overseas personnel can improve efficiency and
effectiveness of their roles and enhance overall compliance with policies and procedures while
avoiding common mistakes.


Review of Legislation and Regulations

During the reporting period, OIG monitored and reviewed four separate pieces of legislation that
affect the programs and operations of the Peace Corps. The bills, introduced in the House and the
Senate, center on issues related to Volunteer safety and security and agency response to
Volunteer allegations of sexual assault. Other important areas of focus areas include agency
portfolio reviews, hiring practices, management oversight, performance reporting, and
strengthening of IG independence.

       H.R. 2337 - Kate Puzey Peace Corps Volunteer Protection Act of 2011 (introduced 6/23/2011)
       S. 1280 - Kate Puzey Peace Corps Volunteer Protection Act of 2011 (introduced 6/27/2011)
       H.R. 2583 - Foreign Relations Authorization Act, Fiscal Year 2012 (introduced 7/19/2011)
       H.R. 2699 - Peace Corps Volunteer Service Improvement Act of 2011 (introduced 7/29/2011)




April 1 to September 30, 2011                                                              9
PAGE INTENTIONALLY LEFT BLANK
Management and Performance
Challenges




PC/Swaziland Volunteer Leader Matthew Krugh demonstrating an alternative to coal
made from shredded paper and water.
            Management and Performance Challenges

Inspector General’s Statement

In accordance with the Reports Consolidation Act of 2000, OIG submitted five challenge areas
for inclusion in the agency‘s Performance and Accountability Report for fiscal year 2011. It was
determined that these five areas present the most significant management and performance
challenges facing the Peace Corps.

Four of the five challenges OIG had previously identified; three in the FY 2009 challenges and
one in the FY 2010 challenges. Those same areas continue to present significant management
and performance challenges at the Peace Corps so they are presented again this year. In addition,
OIG has identified one new challenge that crosses a number of important functional areas.

In the FY 2010 challenges, OIG identified the need to improve the agency‘s business operations,
at both agency headquarters and field locations, in order to accommodate growth and expansion.
While Volunteer growth has not matched expectations, there is still a need for the agency to
modernize and enhance its business tools and processes. Therefore, many of the same elements
related to that specific challenge are included in the new challenge on streamlining business
processes and modernization of information systems.

The five challenge areas are described below:

Challenge      Information Technology Management

In last year‘s Challenges, OIG indicated that the agency‘s most significant risks have been, and
continue to be, associated with ensuring that the agency places limited resources where they are
most needed; that funds spent on contracts consistently meet requirements; and that the
information technology (IT) infrastructure effectively supports the Peace Corps‘ mission. The
Office of the Chief Information Officer (OCIO) has made progress in strengthening IT
management through significantly improving its investment review board process, developing an
IT strategic plan, and updating its systems development lifecycle process. Further, management
has performed significant IT upgrades at overseas locations and made a number of other
operational improvements. However, the agency lacks a documented comprehensive enterprise
architecture to assist in guiding and making decisions impacting IT.

Although management continues to also make progress in strengthening Peace Corps‘ IT
security management, some issues associated with Federal Information Security Management
Act compliance that were discussed in prior IG Challenges have not been fully resolved. For
example, the processes for configuration management have not been fully implemented and
contingency plan testing is not being accomplished at overseas posts. Achieving full compliance
with federal laws and regulations that apply to managing the Peace Corps‘ IT infrastructure are
critical management challenges. OCIO is further challenged by high personnel turnover in key

     12                                                 Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

technical areas resulting, at least, in part from term limit assignments imposed by law and the
availability of qualified resources. It is also having difficulty filling vacancies due to budget
constraints. As a result, OCIO is presently down to 80 percent of its authorized full-time
equivalent personnel strength and is projected to be at about 71 percent by fiscal year end 2012.

Challenge      Property Management

Accountability over Peace Corps property continues to present challenges for management. The
agency‘s FY 2011 (Third Quarter) balance sheet indicates the agency‘s general property, plant,
and equipment (PP&E) has a net book value of about $41.3 million. The Peace Corps‘ general
PP&E includes primarily vehicles, office furniture, computer equipment, and software. Property
management involves organizational activities related to acquiring, tracking, controlling, and
disposing of these items. In last year‘s Challenges, OIG reported that issues with overall property
accountability have continued to impact operations.

OIG noted, during the last 12 months, there were significant problems with accountability of
certain assets, managing excess property, and recording and tracking. For example, OIG found
at some Peace Corps posts that records were not being updated to reflect all property that had
been disposed and/or added to inventory and periodic required physical counts were not being
conducted. External auditors reported that the agency had not taken the necessary corrective
actions that were recommended last year to ensure accurate tracking of assigned laptop
computers at headquarters. As a result, there were still problems determining the location of
these assets.

Other examples of deficient property management include failing to dispose of property
identified as ―excess to needs‖ in a timely manner and inadequate physical control. Ineffective
property management unnecessarily exposes the agency to risks associated with fraud, waste,
and abuse and drives up operating costs. The new property accountability software began pilot
implementation in the Fourth Quarter of FY 2011 and is expected to be fully implemented and
utilized in time for the annual property inventory in First Quarter of FY 2012. The capabilities
for improving accountability will not be known until the new system has been fielded and an
assessment of its effectiveness is made. As a result, improving overall property management and
strengthening internal control related to property accountability continues to be a management
challenge.

Challenge      Protection of Personally Identifiable Information

OIG first identified this challenge during FY 2009 and continues to identify problems with the
agency‘s management and control over Personally Identifiable Information (PII). The Peace
Corps routinely receives, processes, and maintains significant amounts of PII. PII includes
information that can be used to distinguish or trace an individual‘s identity, such as name, Social
Security Number, or biometric records. This information can be used to link to other data, such
as bank accounts and other financial or personal information that can assist perpetrators in
committing crimes associated with identity theft. The Office of the Chief Information Office
reported there were nine separate breaches in PII during FY 2011. The breaches were
compromised of PII data associated with over 180 individuals.

April 1 to September 30, 2011                                                              13
Since FY 2009, OIG has identified the protection of PII as a management challenge that called
for enhanced management practices and more effective internal control. In June 2009, OIG
investigated and issued investigative reports on the breach of more than 495 medical files that
included applicant‘s names, Social Security Numbers, addresses, dates of birth, dental records,
lab reports, and medical questionnaires. In FY 2010, a Peace Corps recruiter reported that her
laptop and 10 applicant files was stolen during a visit to a university campus. Later that same
year a country director reported that two Peace Corps USB drives containing PII for 52 trainees
were stolen when a vehicle was broken into.

In last year‘s management response to this issue, the implementation of the Volunteer Life Cycle
System and electronic medical records systems were mentioned as measures that should
significantly reduce the risk of PII security breaches. However, neither system has been
implemented. Until these improvements are made and the systems described are fully
operational, OIG believes that PII will remain potentially vulnerable to breaches. As a result, it
will continue to be a challenge for management to ensure Peace Corps personnel consistently
comply with applicable federal and agency guidance governing managing PII data.

Challenge      Remediation of OIG Findings and Recommendations

In FY 2010, OIG reported a challenge related to untimely remediation of OIG findings and
recommendations, which continues to be a challenge. OIG reviewed some of the agency‘s key
headquarters‘ level business processes and made a number of recommendations in three separate
OIG audit reports issued in FY 2010. These recommendations would improve efficiencies and
effectiveness associated with supporting Volunteers in the field; strengthening internal control;
and ensuring compliance with applicable federal laws, regulations, and Peace Corps policy. The
reports are listed below:

       Office of the Chief Information Officer Budget Formulation and Management
       Process for Soliciting, Awarding, and Administering Contracts
       Volunteer Safety and Security Program

Although management has made progress in remediating some of the associated findings and
recommendations, it continues to not be effective or timely in taking corrective actions necessary
to remediate the deficiencies noted in the related reports. Management was initially notified
regarding the reports‘ findings and recommendations 17 to 20 months ago (two Preliminary
Audit Reports were issued in January 2010 and one was issued in April 2010). As of the end of
FY 2011, management had taken sufficient corrective actions to enable OIG to close 43 of the 68
recommendations included in the three reports.

In addition, OIG issued an evaluation report on the Volunteer Delivery System (VDS) in October
2010 (Follow-up Evaluation of the VDS). The VDS is mission critical because it is used as a
repository for data on recruiting, selecting, and placing Volunteers in the field. The evaluation
followed up on a prior OIG evaluation related to VDS that was performed in 2003. Based on our
follow-up effort, OIG determined that many of the corrective actions agreed to by management
in 2003 were either not initiated or were not fully carried out. To date, management has
remediated only two of the 23 recommendations contained in the follow-up report.

     14                                                  Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL



This lack of effective and timely remediation of OIG findings and recommendations by senior
management is a trend that has continued through FY 2011. Despite the best efforts made by the
chief compliance officer over the last 12 months to facilitate remediation, a significant number of
audit and evaluation findings and recommendations remain in an open status. As of September
30, 2011, there were 125 recommendations open for more than 180 days, including 42 that were
issued two to seven years ago.1 As mentioned in the FY 2010 Challenges, timely remediation of
findings and recommendations is dependent on senior management‘s full attention and support in
correcting known deficient conditions, as well as ensuring that there is a priority placed on
compliance. OIG believes agency management needs to place greater emphasis on remediating
findings and implementing recommendations.

Challenge        Business Processes and Information Systems

Although the Peace Corps is continuing to streamline operations and improve the technology that
supports key business processes and critical Volunteer support functions, it is constrained by
limited resources and inadequate planning. Given new fiscal realities, the Peace Corps prospects
for growth and expansion are uncertain. However, the number of Volunteers serving at the end
of FY 2011 reached nearly 9,100. This figure represents the highest Volunteer strength in 40
years. The Peace Corps operates using a decentralized organizational structure, relying on
country directors at overseas posts to implement the policies established by headquarters. A
decentralized organizational structure requires clear and concise policies and procedures that are
consistently applied; open lines of communication; effective planning and budgeting for needed
resources; and strong management oversight to ensure that the agency‘s mission is effectively
accomplished throughout the world. In addition, IT should facilitate the processes by automating
workflow and controls to provide managers with the data necessary to efficiently monitor and
manage operations. A responsive management team that provides quality support services to
Volunteers will require enhanced business processes and modern IT systems.

In response to several OIG audits and evaluations, the Peace Corps has made improvements to its
operations, including: IT governance, acquisition planning and contracting, safety and security
support, and medical support. However, some important initiatives to improve business
processes have been delayed or postponed. As a result, although progress has been made, the
agency still requires improvements in critical mission areas such as:

         Medical Care – In response to an OIG special review, the Peace Corps Office of Volunteer
         Support/Office of Medical Services (OMS) developed a Quality Improvement Plan. The plan
         included a series of technical guidance intended to raise the standards of medical care for
         Volunteers, enhance the credentialing process, and reform the scope of practice policies for
         medical professionals. However, due to resource constraints, OMS could not move forward
         during FY 2011 on acquiring systems that better manage pharmaceutical supply inventory and

1
  Outstanding recommendations include post audits, country program evaluations, financial statement audit,
information security program audit, and special reviews. Recommendations issued in conjunction with the financial
statement and the information security program audits are part of a normal 12-month audit cycle. As a result,
recommendations made during a given fiscal year will remain in an open status during the entire subsequent fiscal
year. Prior year findings and recommendations may be reissued if management has not taken sufficient corrective
actions.

April 1 to September 30, 2011                                                                           15
 enable electronic filing of health records. Further, although a medical chart review process
 intended to increase clinical oversight was made more rigorous and expanded, only a fraction of
 charts are being submitted by posts and reviewed by OMS because it presently lacks the
 capability to review the number deemed necessary to impact improvement. In addition, the
 agency is challenged to ensure medical officers are properly trained and fully comply with the
 large volume of new technical guidance that ranges from new or revised treatment options to
 mandatory medical documentation standards.

 Safety and Security – The agency took steps to improve the adequacy and consistency of
 Volunteer safety and security by increasing lines of communication between headquarters safety
 and security management and the safety and security coordinators overseas. The agency
 developed an agencywide plan, specific security procedures, and a Volunteer safety and security
 handbook. The agency continues to train overseas staff on the policies and procedures.
 Improving Volunteer safety and security will continue to be a challenge without the
 establishment and effective implementation of a Memorandum of Understanding with the
 Department of State on roles and responsibilities for responding to Volunteer safety and security
 incidents overseas. Further, to ensure it continues to make progress, the agency will need to
 monitor the success and pitfalls of the newly established process and make additional
 improvements, such as developing a system for ensuring safety and security recommendations
 are implemented.

 Volunteer Delivery System – In 2009, the Peace Corps began revising the Volunteer Delivery
 System (VDS) technology system. The goal of the redesign was to develop and upgrade the core
 business systems and associated business practices required to manage all stages of the Volunteer
 lifecycle. This redesign effort is ongoing. The agency‘s commitment to implementing a new
 system, including modernizing the VDS and successfully completing related long-term projects
 that require both human and capital resources, will determine whether it can achieve its goals.
 Also critical to the effectiveness of the redesigned VDS is maintaining Volunteer quality and
 putting in place processes and data measurement systems to ensure the Peace Corps is selecting
 and placing Volunteers who can help the people of interested countries in meeting their need for
 trained men and women.

 Document Management – Several key functions, including travel authorizations, vouchering,
 contract management, and leave requests, remain largely paper-based. Streamlining and
 integrating these functions through an IT solution would reduce data entry error, improve
 efficiency, reduce paper dependency, and provide greater storing and retrieving capabilities. The
 Peace Corps recognizes the need for enhanced document management systems, but has not
 sufficiently prioritized and allocated resources to implement significant improvements. The
 agency is exploring options, such as Microsoft SharePoint, to provide greater automation and
 document control.

 Accessibility of Useful and Accurate Data – While conducting audits and evaluations, OIG
 continues to encounter problems obtaining significant data for key business processes. For
 example, OIG has had difficulty accessing summary data related to employee retention and
 turnover, as well as cost and cumulative impact of Volunteer medical accommodations.
 Moreover, up until this year, the Peace Corps did not maintain a central database to capture
 formal resource allocation requests submitted by its component offices to management for
 review and approval. As a result, prior year data was not readily available for review and analysis
 and any data assembled was potentially incomplete or inaccurate. Access to accurate data related
 to headquarters and international operations informs and guides program budgeting, strategic


16                                                    Semiannual Report to Congress
                        PEACE CORPS OFFICE OF INSPECTOR GENERAL

     planning, program development, and management, as well as responses to critical issues
     concerning program effectiveness, efficiency, and waste. Without timely access to relevant data,
     the agency cannot easily make informed management decisions and assess whether it is meeting
     its performance goals.




April 1 to September 30, 2011                                                                17
PAGE INTENTIONALLY LEFT BLANK
Audits




PC/Panama Volunteer Caroline Cates presents, with her counterpart and host family,
their Small Project Assistance (SPA) funded cook stove project.
                                            Audits
Overview

The Audit Unit conducts audits of agency operations that support the Peace Corps‘ mission,
including overseas post field activities, regional recruitment office activities, and headquarters
functions. Audits are conducted in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States. In addition, the Audit Unit
oversees audits of the agency‘s financial statements and information system security and work
contracted out to an independent public accountant (IPA).

The objective of OIG audits is to: independently examine the financial and administrative
operations of the Peace Corps; promote economy and efficiency; and ensure compliance with
federal and Peace Corps regulations. Audits are wide ranging, covering agency activities carried
out at overseas posts, as well as agencywide operations that affect multiple offices. Auditors
provide conclusions based on document and data analysis, interviews, and direct observation.

The Accountability of Tax Dollars Act of 2002 mandates an annual audit of the Peace Corps‘
financial statements. During the reporting period, the Audit Unit monitors the IPA‘s work to
ensure that it is of acceptable quality, in compliance with federal law and professional standards,
and is completed within guidelines established by the Office of Management and Budget (OMB).
In compliance with the requirements of the Federal Information Security Management Act
(FISMA), the Audit Unit oversees the IPA annual reviews of the Peace Corps‘ information
security program and the reporting of relevant data to OMB.

During this reporting period, the Audit Unit began work on audits of the agency‘s budget
formulation process, grants management, and on the regional recruitment office in Rosslyn,
Virginia. The audit of the Peace Corps‘ budget formulation process will focus on increasing
transparency and aligning resources with goals and objectives. The review of Peace Corps‘
management of external funds and grants for Volunteer projects will identify areas to improve
and streamline the processes used to request, receive, and report various grant funds distributed
for Volunteer activities support and training. These including the Peace Corps Partnership
Program, U.S. Agency for International Development Small Project Assistance, and the
President‘s Emergency Plan for AIDS Relief (PEPFAR).

The Audit Unit uses a risk-based assessment to select overseas posts to review for operational
efficiency and effectiveness, financial stewardship, and compliance with agency policies and
federal regulations. At overseas posts, auditors review various operations, including imprest fund
management and cashiering, acquisitions and contracts, personal property management, medical
supply control, and personnel management. During the reporting period, auditors completed
audits of Albania, Panama, and Rwanda.

OIG‘s overseas post audits identify reoccurring issues and trends. Its reports frequently contain
recommendations to headquarters for strengthening controls to prevent and detect systemic

     20                                                   Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

weaknesses. In response to OIG‘s work, the Peace Corps has revised policies and procedures on
property management, vehicle fleet management, and on personal services contractors‘ security
recertification. OIG continues to review the implementation of these policy revisions, in addition
to other areas of concerns noted in previous audits, and to monitor the agency‘s progress in
correcting systemic weaknesses.

During this reporting period, the U.S. Government Printing Office (GPO) OIG reviewed the
system of internal control for the Peace Corps OIG Audit Unit for the period ending September
30, 2010. This review was conducted in conformity with the Council of Inspectors General on
Integrity and Efficiency‘s (CIGIE) Guide for Conducting External Quality Control Reviews of
the Audit Operations of Offices of Inspector General. The Peace Corps OIG received a peer
review rating of pass. The results of the review are included in Appendix A.


Agencywide Audits
Peace Corps Fiscal Year 2011 Financial Statement Audit

During this reporting period, OIG engaged an IPA firm to conduct an audit of the Peace Corps‘
fiscal year 2011 financial statements. As of September 30, 2011, the audit was ongoing. OIG
intends to issue IPA‘s reports through a transmittal memorandum under the Inspector General‘s
signature by the OMB-mandated reporting date of November 15, 2011. Details regarding the
audit results will be included in the next Semiannual Report to Congress (SARC).

Annual Review of Peace Corps Fiscal Year 2011 Information Security Program

The Federal Information Security Management Act (FISMA) requires federal agencies to
establish security protections and a program to secure information systems from unauthorized
access, use, disclosure, modification, and other harmful impacts. In addition, FISMA requires
that each OIG review its agency‘s information security program and report results to OMB
annually. To meet this requirement, OMB has developed an online data collection system for
FISMA reporting from federal agencies and their respective OIGs. As of September 30, 2011, a
review was ongoing. Comments on final review results will be covered in the next SARC.


Post Audits
PC/Albania: Audit
IG-11-07-A

OIG issued its audit report of PC/Albania in June 2011. The Peace Corps began operating in
Albania in 1992, left in 1997 because of civil unrest, and returned in 2003. Since 1992, over 441
Volunteers have served in Albania. At the time of the audit, 78 Volunteers were working in the
project areas of community development, health, and teaching English as a foreign language.

PC/Albania‘s financial and administrative operations were functioning effectively and in overall
compliance with agency policy and federal regulations. The post had effective processes and
April 1 to September 30, 2011                                                             21
controls in place over most of its administrative operations, including imprest fund management,
vehicle management, and medical supplies. However, OIG determined that the post had not
requested and obtained security recertifications for 13 personal services contracts (PSCs).
Security recertifications, essential elements of Peace Corps‘ safety and security program, are
required every five years to help ensure staff members are trustworthy.

In addition, the post did not have proper control over property and did not promptly report
reoccurring thefts of Peace Corps property to OIG. By failing to prepare property loss reports,
the post had difficultly determining the timing and amount of property stolen over the last three
years. The post estimated almost $5,000 worth of personal and Peace Corps property and cash
was missing or stolen. With assistance from the U.S. Embassy‘s regional security officer, the
post was able to identify the PSC responsible for stealing the property. Proper filing of loss
reports and prompt reporting to headquarters may have led to earlier detection and prevention of
losses.

Management concurred with all four of OIG‘s recommendations. At the end of the reporting
period, all four recommendations are closed.


PC/Rwanda: Audit
IG-11-08-A

OIG issued its audit report of PC/Rwanda in June 2011. The first group of Volunteers arrived in
Rwanda in 1975. The program was closed in 1993 due to political instability and reopened in
2008. At the time of the audit, 91 Volunteers were working in the project areas of health and
education. PC/Rwanda‘s fiscal year 2010 budget was $1,318,000.

The post required improvement in its financial and administrative operations and its compliance
with agency policies and federal regulations. Specifically, the post lacked sufficient internal
control over imprest fund management, property management, PSC contracts, and medical
supplies.

Several key controls over the imprest fund were missing or not always followed. For example,
monthly verifications did not always include a complete review of supporting documentation and
the cashier did not effectively monitor interim cash advances. The post did not have adequate
separation of duties over information technology (IT) property because the IT specialist
maintained the inventory and performed the physical verification. PSC contract files were
incomplete and disorganized. Further, the post received temporary security certifications for
PSCs after reopening in 2008, but had not followed up with the regional security officer to
ensure staff had the final security certifications.

OIG also noted deficiencies in post compliance with several agency policies, including the
requirements to: complete and analyze Volunteer living allowances, separate medical supply
responsibilities, review and approve time and attendance records, record vehicle usage to prevent
and detect improper use of government equipment, and evaluate staff performance annually.



     22                                                 Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

Management concurred with all 31 recommendations. At the end of the reporting period, 30
recommendations are closed and 1 recommendation remains open.

PC/Panama: Audit
IG-11-09-A

OIG issued its audit report of PC/Panama in July 2011. The first group of Volunteers arrived in
Panama in 1963. The program was closed in 1971 for political and security reasons and resumed
in 1990. At the time of the audit, the post had 52 staff members and a 2011 budget of $3.3
million to support 252 Volunteers working in the project areas of: English teaching, community
environmental conservation, sustainable agriculture systems, environmental health, and
community economic development.

The post‘s financial and administrative operations were effective and in overall compliance with
agency policies and federal regulations. However, the post did not have an adequate process in
place to control medical supplies, resulting in incomplete and inaccurate medical supply
inventories. In addition, the post had not obtained all of the required security recertifications for
staff hired through personal services contracts

Further areas of improvement include: conducting Volunteer allowances surveys, separating
property management responsibilities, and annually assessing the imprest fund level. In addition,
OIG identified approximately $12,500 in funds to be put to better use if the post reduces its
number of vehicles.

Management concurred with all 11 recommendations. At the end of the reporting period, all 11
recommendations remain open.

Funds to be Put to Better Use
Recommendation Number 3: Future Sale of an Excess Vehicle -- $12,500




April 1 to September 30, 2011                                                                23
PAGE INTENTIONALLY LEFT BLANK
Evaluations




PC/Romania Volunteer Chelsea Marshall with her host mom in front of their house.
                                        Evaluations

Overview

The Evaluation Unit provides the agency with independent evaluations of Peace Corps programs,
operations, and management at 70 overseas posts and domestic offices and programs. It
promotes greater efficiency and effectiveness by identifying best management practices,
recommending program improvements, and means by which to comply with Peace Corps
policies and federal regulations.

During this reporting period, OIG continued to provide management with comprehensive
assessments of how effectively overseas country programs and headquarters operations are
functioning. Along with the final reports included below, evaluations of Peace Corps programs
in Uganda, Peru, and China are currently underway, and OIG issued preliminary reports to the
agency on the Kyrgyz Republic and Fiji programs. OIG is continuing to work on its evaluation
of the impact of the rule that caps staff tenure (―The Five-year Rule‖) and a review of the
agency‘s implementation of protocols and procedures in response to Volunteer survivors of rape
and sexual assault.

Evaluations are conducted under the direction and guidance of the assistant inspector general for
evaluations and in accordance with the Quality Standards for Inspections published by
CIGIE. Country program evaluations include interviews, reviews of relevant documents and
data, physical observations, and analysis by evaluators. OIG evaluators interview Volunteers,
and headquarters and post staff, as well as key host country and U.S. government officials. In
effecting their interviews, the evaluators select a representative sample of currently serving
Volunteers based on their length of service, site location, project focus, gender, age, marital
status, and ethnicity. Evaluators conduct the bulk of the Volunteer interviews at the Volunteers‘
homes and worksites and inspect their housing using post-defined criteria. The period of review
for a country program evaluation is one full Volunteer cycle (typically 27 months).

For country program evaluations, OIG uses the following researchable questions to guide its
work:

       To what extent has the post developed and implemented programs intended to increase the
       capacity of host country communities to meet their own technical needs?
       To what extent has the post implemented programs to promote cross-cultural understanding?
       To what extent does training provide Volunteers the necessary knowledge, skills, and attitudes to
       integrate into the community and perform their jobs?
       To what extent has the post provided adequate programmatic, health, and personal safety support
       and oversight to Volunteers?




     26                                                     Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL


Country Program Evaluations
PC/Cambodia: Country Program Evaluation
IG-11-04-E

OIG issued its final country program evaluation of PC/Cambodia in May 2011. Over 100
Volunteers have served in Cambodia since the program began in 2006. At the time of the
evaluation, there were 40 Volunteers serving in one project sector: the English teacher and
teacher training program.

The PC/Cambodia program, long requested by the government of Cambodia, was successfully
launched by experienced staff with regional expertise. They have established a solid base of
programmatic operations. The Volunteers are well-integrated within their communities and are
accomplishing project goals. Successful community integration has been a keystone to the
Volunteers‘ sense of satisfaction with their service and their personal safety. The host
government, both at national and local levels, has embraced the PC/Cambodia program and is
working in partnership with program managers to more firmly establish and extend Volunteer
projects.

In spite of its strong launch, the program has experienced growing pains and struggled in several
key areas. An eight-month vacancy in the director of programming and training (DPT) position
had a profound impact on the newly-established country program. The vacancy put a strain on
key operations and lapses began to appear in important programming areas. A permanent DPT
arrived in July 2010, and the post addressed these issues in order to regain the positive
momentum established in its first years of operation. Subsequently, the Office of Global
Operations centralized the recruitment of all DPTs and directors of management and operations
with the Office of Overseas Recruitment, Selection and Support, and it implemented centralized
hiring procedures in January 2011.

OIG discovered that pre-service Volunteer safety and security training conducted during 2009
was largely ineffective. Volunteers were also dissatisfied with several areas of safety and
security support during service. OIG recommended that the country director develop a
professional development plan to improve effectiveness of the safety and security coordinator
and the quality of safety and security support. It also recommended that the content and delivery
of pre-service training (PST) safety and security sessions be strengthened.

Many of the areas of PC/Cambodia operations that require attention can be attributed to new
staff members still learning their roles and responsibilities. OIG made recommendations that
address host family selection, Volunteer work expectations, diversity training programs, Small
Project Assistance grants, and the Volunteer Advisory Council. Recommendations were also
made in reference to office communication and staff development needs. The OIG report
contains 19 recommendations, which, if implemented, should strengthen programming
operations and correct the deficiencies detailed in the accompanying report.

Management concurred with all 19 recommendations. At the end of the reporting period, eight
recommendations remain open.

April 1 to September 30, 2011                                                            27
PC/Romania: Country Program Evaluation
IG-11-05-E

OIG issued its final country program evaluation of PC/Romania in June 2011. Over 1,100
Volunteers have served in Romania since the program was first launched in 1991. At the onset of
this evaluation, 99 Volunteers were serving in Romania in three project sectors: teaching English
as a foreign language (TEFL); environmental education and outreach; and youth development.

During 2010 and 2011, the post closed three Volunteer project sectors and the country program
shifted from a projected ―moderate‖ growth plan to ―no growth.‖ Regional managers have
subsequently put forward a plan to close the country program by September 2013 after the
Volunteers who entered service during 2011 complete their service. These events have
negatively impacted staff morale and the workplace environment. Lengthy staffing vacancies
during 2010 required post staff to assume additional responsibilities, which also impacted post
operations.

OIG found that amid this uncertainty and significant staff and programmatic changes,
PC/Romania continues to be a strong performing post. The post maintains positive and stable
relationships with government ministry partners. Project partners expressed appreciation for the
work of the Volunteers and looked forward to ongoing collaboration with the Peace Corps.
During 2010, PC/Romania carried out a significant strategic shift to better align the post with
host country goals. Based on input from stakeholders, the post refocused its TEFL project on
rural and underserved communities.

Volunteers felt well supported by staff, and believed the staff is responsive to the issues they
raise. The post‘s comprehensive worksite selection process, which results in multiple potential
sites, positions Volunteers with meaningful assignments and strong counterparts. However,
given the new focus on rural underserved communities, OIG recommended that project
management and Volunteer support practices be reviewed to ensure that Volunteers assigned to
new worksites continue to receive adequate support.

Overall, Volunteers feel safe in Romania. The number of reported crime incidents has been
lower than regional averages for the past three years. However, some aspects of emergency
preparedness at the post were not compliant with policy, as most Volunteers interviewed could
not identify their emergency consolidation points or their security wardens. While Volunteer
housing met most of the post-established criteria, many Volunteers did not have functioning
carbon monoxide detectors in their homes, which the regional security officer (RSO) raised as a
concern.

Management concurred with all 12 recommendations. At the end of the reporting period, two
recommendations remain open.

PC/Swaziland: Country Program Evaluation
IG-11-06-E

OIG issued its final country program evaluation of PC/Swaziland in August 2011. The program
closed in 1996 and reopened in 2003. Over 1,700 Volunteers have served the people of the
     28                                                 Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

Kingdom of Swaziland. At the time of OIG‘s visit, 70 Volunteers were serving in one project
sector: community health-HIV/AIDS education.

PC/Swaziland has positioned itself for growth. In 2011, the post added a new education sector
and purchased its office building. Volatile economic and political conditions in Swaziland,
combined with growth in the program, underscored the need for a smooth transition to a new
country director, who started in the spring of 2011.

PC/Swaziland has many elements of a high performing post. The staff works together to ensure
that Volunteer support needs are addressed, and Volunteers have a high level of trust in staff in
regard to their safety and security, health training, and support. The staff is effectively meeting
the needs of married and 50+ Volunteers. The post‘s practices for developing and placing
Volunteers at approved sites, including sound housing assessment procedures, the use of site
histories to inform placements, and orienting host families and counterparts, are all highly
effective.

Volunteers said they receive appropriate training at the right points in their service, and they
appreciate the high quality of both the trainers and the materials. Volunteers provided examples
of capacity building activities done with their counterparts, community leaders, and within
organizations. The post is also effectively coordinating with PEPFAR partners. However, 2010
post reports were missing PEPFAR-related data, which made it difficult to determine whether
Volunteers were meeting their project objectives.

Volunteers live in communities with high rates of HIV/AIDS. Additionally, sexual harassment
and gender disparities are particularly challenging for female Volunteers. The post has addressed
Volunteer stress levels through programmatic changes and by providing focused trainings, and
Volunteers support each other through a peer support network. Staff members are also a source
for the Volunteers‘ emotional support needs, and Volunteers can access short-term counseling as
needed. However, 22 PC/Swaziland Volunteers did not complete their service between 2008 and
2010. OIG found that the recommendations made in agency assessments in 2007 and 2008 to
analyze the factors leading to Volunteer early terminations had not been addressed. Assessments
of early termination data will help deliver suitable and well-matched Volunteers to the
PC/Swaziland program.

Management concurred with all four recommendations. At the end of the reporting period, two
recommendations remain open.

PC/Liberia: Country Program Evaluation
IG-11-07-E

OIG issued its final country program evaluation of PC/Liberia in September 2011. Nearly 3,900
Peace Corps Volunteers have served in Liberia since the program began in 1962. The program
was closed in 1990 due to civil war but re-opened in October 2008. At the onset of this
evaluation, 30 Volunteers were serving in Liberia. Fourteen of those were serving in secondary
education projects and 16 were Peace Corps Response Volunteers (PCRVs) who undertake
short-term assignments that average six months in duration.


April 1 to September 30, 2011                                                               29
The program has been well received by the Liberian government since re-opening in 2008. The
secondary education project is aligned with host country needs, and the post has developed a
good working relationship with the Ministry of Education. However, OIG reported important
programming concerns, many of which relate to opening the post under an accelerated schedule
and insufficient financial and physical resources. Lessons learned from the post‘s opening were
not incorporated into agency processes and policies to help ensure that similar mistakes are not
repeated in the future.

Liberia is still rebuilding its educational system after years of civil war. Volunteers face
significant challenges in effectively carrying out their primary assignments. They also reported
that they were inadequately prepared for Liberia‘s post-conflict-related challenges, which
impacted their community integration and work effectiveness.

Although the short-term PCRVs reported higher levels of satisfaction than two-year Volunteers
in reference to their service, it is unclear what the post is trying to achieve with its Peace Corps
Response positions in health and education. Some staff questioned whether the short-term
assignments were worth the time and resources they required, especially given the number of
challenges that need to be addressed with the two-year program.

The evaluation also reported weaknesses in the post‘s safety and security program, which could
result in a poor response to emergencies. Some of the primary concerns are related to Volunteer
confusion regarding emergency consolidation points; Volunteer housing that did not meet the
post‘s housing criteria; inaccurate site locator forms; inadequate safety communications to
Volunteers; and out-of-date copies of the post‘s emergency action plan.

Management concurred with all 33 recommendations. At the end of the reporting period, 32
recommendations remain open.




     30                                                    Semiannual Report to Congress
Investigations




The Mankwe Dam, South Africa.
                                         Investigations
Overview

OIG is authorized to conduct investigations on waste, fraud, abuse, and mismanagement in Peace
Corps programs and operations, both domestically and overseas. OIG investigates both criminal
and administrative misconduct allegations involving Peace Corps staff, contractors, and
Volunteers, including violations of Peace Corps and U.S. government standards of conduct. OIG
utilizes various techniques to investigate allegations of wrongdoing. Allegations are forwarded to
OIG through multiple means, including OIG audits and evaluations, OIG hotline complaints, and
by Peace Corps stakeholders (Volunteers, trainees, staff, contractors, etc.), and other federal
entities and the general public.

During this reporting period, OIG closed all but two remaining legacy violent crimes cases.
Prior to September 2008, the Investigation Unit managed and coordinated the agency‘s
participation in the investigation and prosecution process of cases involving violent crimes
committed against Volunteers. In September 2008 this function was transferred to the Peace
Corps Office of Safety and Security; however, OIG retained oversight of cases that OIG was
involved prior to the transfer. The Investigation Unit remains responsible for investigating
allegations of criminal wrongdoing, including violent crimes, committed by Peace Corps staff
members, contractors, and Volunteers.

In July 2010, Attorney General Eric Holder authorized OIG statutory law enforcement powers
pursuant to Section 6(e) of the Inspector General Act of 1978, as amended. During the current
reporting period, the Investigation Unit executed a search and arrest warrant at a subject‘s
residence in Connecticut. The case involved an allegation that returned Peace Corps Volunteer
Jesse Osmun violated the PROTECT Act2 while serving in South Africa.

The Investigation Unit continues to investigate fraud associated with the Federal Employee‘s
Compensation Act (FECA). During this reporting period, OIG performed ―alive and well‖
checks in northern California and at two Office of Worker‘s Compensation District Offices
(Jacksonville and Philadelphia). As a result of OIG inquiries, Department of Labor Office of
Workers Compensation in Jacksonville finalized a settlement involving an overpayment of
benefits for the Volunteer‘s spouse. The settlement included the repayment of approximately
$15,000 to the U.S. government. Finally, two FECA cases referred by the OIG to the United
States Attorney‘s Office await prosecutorial consideration.




2
 Prosecutorial Remedies and Other Tools to End the Exploitation of Children Today Act of 2003 (Public Law 108-
21, 117 Stat. 650, S. 151)

      32                                                        Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL




Legacy Cases
Homicide Investigation at a Post in Central Africa

A 1998 Volunteer homicide remains an open and ongoing investigation. OIG continues to work
with the regional security officer, the FBI, and a local attorney in support of efforts to properly
secure additional evidence in the case. The Inspector General met with the president of Gabon
and minister of justice, along with Peace Corps senior staff, to discuss the case.


Criminal and Misconduct Related Investigations
Arrest of Former Peace Corps Volunteer

In early June 2011, OIG received an allegation that a former Peace Corps Volunteer, Jesse
Osmun, had engaged in illicit sexual conduct with children in violation of the PROTECT Act,
while serving as a Peace Corps Volunteer at an AIDS center in South Africa. OIG immediately
initiated an investigation and traveled to South Africa, obtaining support from the Department of
State‘s regional security officer and the Department of Homeland Security (DHS). OIG and other
U.S. law enforcement notified officials from the South African Police Service, Directorate for
Priority Crime Investigation that Osmun could face criminal charges in the United States for any
illicit sexual conduct with children in South Africa. OIG and DHS officials in Connecticut, Mr.
Osmun‘s home of record, conducted further investigation in the United States and presented the
case for criminal prosecution to the United States Attorney‘s Office for the District of
Connecticut and Department of Justice‘s Child Exploitation and Obscenity Section. The United
States Attorney‘s Office for the District of Connecticut accepted the case for prosecution.

On August 4, 2011, a federal magistrate in Connecticut signed a search warrant authorizing OIG
and DHS to search Osmun‘s residence for, among other things, a laptop computer. When the
agents executed the search, they were able to speak to Osmun and obtained a written confession.
The agents contacted the U.S. Attorney‘s Office and obtained authorization to arrest Osmun.
Osmun was presented in court on the day of his arrest and he currently remains in custody while
the investigation continues. If convicted of the charge of traveling outside of the United States to
engage in illicit sexual conduct with minors, Osmun faces a maximum term of imprisonment of
30 years and a fine of up to $250,000.

Misuse of Government Property/Unauthorized Medical Treatment at a Post in
Europe

OIG determined that for over a decade, the Peace Corps medical officer (PCMO) provided
medical consultation, treatment, and/or referral to other medical professionals to non-Volunteer
patients at the post. In doing so, he not only used Peace Corps resources, but also regularly
performed examinations, obtained necessary laboratory testing, and prescribed medication for
non-Volunteer patients. The PCMO acknowledged receiving payments from these individuals,
which included cash, homemade goods, and bottles of liquor. An OIG inspection of the PCMO‘s
April 1 to September 30, 2011                                                               33
office disclosed an envelope containing U.S. and Euro currency having a U.S. equivalent value
exceeding $5,800. The same file cabinet contained medical records pertaining to non-Volunteer
patients. The investigation disclosed that the PCMO was managing his own medical practice for
private gain, misusing the Peace Corps post, a U.S. government facility, and engaging in the
unauthorized use of government time, equipment, and supplies. The activities violate the
Standards of Ethical Conduct for Employees of the Executive Branch and Peace Corps policy,
which the PCMO was contractually obligated to follow.

OIG further determined that the PCMO had brought into the Peace Corps office about 150
unauthorized visitors over a 2 ½-half year period. While some of the visitors came to the post for
official reasons, a large number of the visitors came to receive private medical treatment from
the PCMO and were not cleared to enter the premises.

The agency elected to provide the contractor PCMO verbal and written counseling and he signed
a ―Last Chance Agreement,‖ stating that any further contact with non-Volunteers while on duty
would result in immediate termination.

PROTECT Act Violation at a Post in Eastern Europe

OIG initiated a PROTECT Act investigation involving a Volunteer at a post in Eastern Europe.
The investigation was conducted with the assistance of the U.S. Department of State regional
security officer. The Volunteer admitted to having a long-term sexual relationship with a female
host country national that started when she was 15 years old. The Volunteer resigned in lieu of
administrative separation. The United States Attorney‘s Office in the Eastern District of
Pennsylvania declined to prosecute the case.

PROTECT Act Allegation at a Post in Eastern Europe

The post country director (CD) forwarded OIG an email from a Volunteer in which the
Volunteer denied allegations from other Volunteers that he had taken an underage student, who
was 12 years old, on an overnight trip. The OIG investigation revealed that the Volunteer had
been on an overnight trip with an 18-year-old student who had the same first name as another
student who was 12. The 18-year-old was not the Volunteer‘s student, but attended the high
school where the Volunteer worked. While no criminal activity was determined, the Volunteer
acknowledged the appearance of impropriety by going on an overnight trip with a student at the
school where he was working. The Volunteer was removed from his site, transferred to another
community, and placed on a corrective action plan.

PROTECT Act Violation at a Post in the Pacific

OIG received information from the post‘s CD that a Volunteer may have violated the PROTECT
Act. The post had received information from a nongovernmental organization (NGO) that the
Volunteer was involved in same-sex relationships with minors. The Volunteer, assigned as a
teacher, acknowledged showing an adult movie that contained nudity, sexual situations, and
themes of homosexuality to an underage student, which upset the student and her family. The
CD informed OIG that homosexuality in the host country is forbidden by law. The Volunteer
was moved to another site but then admitted to hosting three underage students of the same sex

     34                                                  Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

for a ―sleepover.‖ Although the Volunteer received parental consent for the sleepover, the CD
deemed it inappropriate because it provided the appearance of favoritism of selected students.
The Volunteer resigned after OIG‘s investigation.

Sexual Assault at a Post in Central America

A female Volunteer reported she had been sexually assaulted by a male Volunteer. OIG
investigated the allegation, obtaining witness statements and evidence at the post. After
reviewing OIG‘s investigation report, the agency separated the male Volunteer and gave him
interrupted service status, which does not preclude him from future Peace Corps service. The
female Volunteer was transferred to another post after a period of medical leave at her home of
record.

Sexual Assault at a Post in Central America

OIG received an allegation that a male Volunteer sexually assaulted another male Volunteer.
OIG investigated the incident at the post and the subject of the investigation admitted to
initiating sexual contact with the sleeping victim without his consent. The subject resigned from
the Peace Corps.

Conflict of Interest Allegation at a Post in the Caribbean

OIG received an anonymous allegation regarding the 2010 hiring of two post staff members.
The alleger stated that the post administrative assistant had personal relationships with these two
individuals and was personally involved in the hiring process, which could be a conflict of
interest and possible violation of ethics law and regulations, as well as Peace Corps policy. OIG
determined that the administrative assistant‘s involvement in these two matters did not affect the
selection decisions.

Conflict of Interest Allegation at a Post in Europe

OIG received an allegation that a financial assistant directed several government contracts for the
repair of government vehicles to her husband, who owned and operated an automotive repair
shop. It was further alleged that during this period, the financial assistant processed and approved
all vehicle repair costs.

OIG interviewed current and former post personnel at the post and conducted an extensive
document review related to the use of the auto shop. Additionally, OIG consulted with the Peace
Corps designated agency ethics official, who provided her view on matters relating to federal
ethics rules and related agency policy. With regard to the allegation, The OIG investigation did
not substantiate wrongdoing by the financial assistant.

Misuse of Government Computer and Sexual Assault at a Post in the South Pacific

OIG received an allegation that the post‘s training manager, a personal service contractor (PSC),
used a Peace Corps computer to view pornography during business hours. OIG confirmed this
allegation. Additionally, the OIG investigation disclosed that the PSC previously had been the

April 1 to September 30, 2011                                                              35
subject of a sexual assault allegation against a host country national while attending a training
conference in a Central American country. The incident was not reported to OIG. OIG verified
the credibility of the sexual assault allegation. The PSC resigned from the Peace Corps.

Misuse of Government Computer at a Post in Southern Africa

OIG investigated an allegation that the post‘s financial assistant, a PSC, had run a private
business using a Peace Corps computer. OIG coordinated with post management and the Peace
Corps Office of the Chief Information Officer. OIG confirmed the allegation. In addition, the
investigation found that the PSC had misrepresented himself as an agent of the Peace Corps in
personal business negotiations and viewed pornographic images from a government computer.
As a result of the investigation, the PSC resigned from the agency.

Fraternization Allegation at a Post in South America

OIG received an allegation from a Volunteer alleging improper fraternization and inappropriate
conduct by a manager at the post. It was alleged that the manager would invite young female
Volunteers who were visiting the capital to stay at his residence, at which time he would make
sexual advances.

OIG interviewed several current and former Volunteers who worked closely with the manager
and/or stayed at the manager‘s home as overnight guests. OIG found no information to support
the allegation.

Improper Conduct by Volunteers at a Post in Southeast Asia

OIG received information from the post‘s CD regarding the conduct of two Volunteers who
allegedly abused alcohol routinely and had contact with prostitutes. OIG coordinated with the
U.S. Embassy through the regional security officer (RSO) and provided guidance and
information to post management. Both Volunteers resigned in lieu of administrative separation.

Drug Use by Multiple Volunteers at a Post in Central America

OIG received allegations that Volunteers were not adhering to out-of-site policies and were
smoking marijuana. The OIG investigation disclosed reasonable basis that at least five
Volunteers had used marijuana and three Volunteers left their sites without proper authorization.
Per the investigation, three Volunteers resigned and two others were placed on a corrective
action plan.

Drug Distribution by a Volunteer at a Post in Eastern Europe

OIG received an allegation that a Volunteer was supplying marijuana to other Volunteers. The
Volunteer allegedly used her local premises to dry and process marijuana. The OIG investigation
disclosed that the Volunteer informed several other Volunteers about the marijuana operation
during training and that the Volunteer was the ―go to‖ individual if any Volunteers wanted to
smoke marijuana in-country. The Volunteer resigned immediately after the OIG investigation.



     36                                                  Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL


Improprieties Allegation at a Post in Central America

OIG received a complaint expressing concerns about the conduct and performance of the post‘s
CD. The allegation referred to improprieties related to six matters: (1) purchase of government
vehicles; (2) use of government vehicles for personal benefit; (3) use of staff for personal
benefit; (4) failure to report to work; (5) failure to properly budget for post expenses; and (6)
failure to pay the post‘s electric bill in a timely manner. The allegations were not substantiated.

Release of Confidential Information Allegation at Headquarters

OIG received an allegation that a returned Peace Corps Volunteer‘s medical file was distributed
and made available to unauthorized staff within the Peace Corps. OIG opened an investigation
into this matter and interviewed Peace Corps staff members who had access to the Volunteer‘s
medical file. OIG also reviewed internal controls associated with the request, distribution, and
maintenance of confidential medical information. The investigation did not substantiate the
allegation. The investigation disclosed that all staff members who had access to the subject‘s
medical file were authorized to view it. Furthermore, OIG found no evidence that the file was
distributed to unauthorized persons within or outside of the Peace Corps.




April 1 to September 30, 2011                                                               37
PAGE INTENTIONALLY LEFT BLANK
Tables




PC/Cambodia Volunteer Keiko Valente shows off her host family’s prized banana
trees.
                                             Tables
1: List of Reports: Audits and Program Evaluations

                                              Post Audits
   PC/Albania: Audit (IG-11-07-A)
   PC/Rwanda: Audit (IG-11-08-A)
   PC/Panama: Audit (IG-11-09-A)


                                     Country Program Evaluations
   PC/Cambodia: Country Program Evaluation (IG-11-04-E)
   PC/Romania: Country Program Evaluation (IG-11-05-E)
   PC/Swaziland: Country Program Evaluation (IG-11-06-E)
   PC/Liberia: Country Program Evaluation (IG-11-07-E)




    40                                                      Semiannual Report to Congress
                                   PEACE CORPS OFFICE OF INSPECTOR GENERAL


    2: Reports with Questioned Costs, Unsupported Costs, and Funds Put to Better Use

                                                                               Questioned   Unsupported      Funds Put to
                                  Report
                                                                                 Costs3        Costs4         Better Use5
PC/Panama: Audit (IG-11-09-A)
3. Reduction in vehicles due to the determination to not, in the foreseeable
future, open and maintain a regional office and to phase out and eliminate,        -               -            $12,500
by the end of 2012, one of the post‘s five programs.


                                                                       Total                     $12,500




    3
      Questioned Costs – A cost that is an alleged violation of government or Peace Corps regulations. For example:
    prohibited purchases and expenditure of funds for purposes that do not relate to the Peace Corps‘ mission.
    4
      Unsupported Costs – A cost that is not supported by adequate documentation.
    5
      Funds Put to Better Use – A cost that could be used more efficiently, such as costs for unnecessary goods or
    services.

    April 1 to September 30, 2011                                                                            41
   3: Status of Reports Issued by OIG with Questioned and Unsupported Costs

                                                                       Number of   Questioned        Unsupported
                                                                        Reports      Costs              Costs
A. Reports issued prior to this period
  For which no management decision has been made on any issue              -           -                  -
  For which some decisions had been made on some issues

B. Reports issued during this period                                       -           -                  -

Totals of Categories A and B                                               0          $0                 $0

C. For which final management decisions were made during this period
 Dollar value of disallowed costs                                          -           -                  -
 Dollar value of costs not disallowed                                      -           -                  -

D. For which no management decisions were made during this period          -           -                  -

E. For which management decisions were made on some issues during                                         -
                                                                           -           -
this period

Totals of Categories C, D, and E                                           -           -                  -
Total questioned costs and unsupported costs                               0                    $0




         42                                                     Semiannual Report to Congress
                                   PEACE CORPS OFFICE OF INSPECTOR GENERAL


   4: Status of Reports Issued by OIG with Funds to be Put to Better Use

                                                                                Number of   Funds Put to
                                                                                 Reports     Better Use
A. Reports issued prior to this period
  For which no management decision has been made on any issue                       -             -
  For which some decisions had been made on some issues                             -             -

B. Reports issued during this period                                                1         $12,500

Totals of Categories A and B                                                        1         $12,500

C. For which final management decisions were made during this period
 Dollar value of recommendations agreed to by management                            1         $12,500
 Dollar value of recommendations not agreed to by management                        -            -

D. For which no management decisions were made during this period                   -             -

E. For which management decisions were made on some issues during this period       -             -

Totals of Categories C, D, and E                                                    1         $12,500




   April 1 to September 30, 2011                                                             43
5: Recommendations on which Corrective Action has not been Completed

Audits and Evaluations
                                   Open Recommendations 60 to 119 Days
                                                                                                   Agency
                                                                                                 Concurrence6




                                                                                                  Concur



                                                                                                                 Partial
                                                             Date          Total Open




                                                                                                           Non
                          Report
                                                            Issued      Recommendations

    PC/Romania: Evaluation (IG-11-05-E)                    6/30/2011            2                 2        -      -
                                                                Total           2                 2        -      -

                                 Open Recommendations 120 to 179 Days
                                                             Date          Total Open
                          Report
                                                            Issued      Recommendations
    PC/Cambodia: Evaluation (IG-11-04-E)                   5/5/2011             8                 8        -      -
                                                                Total           8                 8        -      -

                              Open Recommendations More than 180 Days
                                                             Date          Total Open
                          Report
                                                            Issued      Recommendations
    PC/HQ Medical Clearance System: Evaluation
                                                           3/31/2008            9                 8        -     1
    (IG-08-08-E)
    PC/HQ Volunteer Safety and Security: Evaluation
                                                           8/28/2008            2                 1        1      -
    (IG-08-13-E)
    PC/Guinea: Audit (IG-09-09-A)                          3/31/2009            2                 2        -      -
    PC/HQ Office of Chief Information Officer: Budget
                                                           1/11/2010            17                13       3     1
    Formulation and Management Audit (IG-10-05-A)
    PC/HQ Peace Corps‘ Process for Soliciting, Awarding,
    and Administering Contracts                            3/22/2010            5                 4        1      -
    (IG-10-06-AA)
    PC/HQ Office of Safety and Security: Audit
                                                           4/1/2010             3                 2        -     1
    (IG-10-08-A)
    PC/Paraguay: Audit (IG-10-10-A)                         8/3/2010            1                 1        -      -
    PC/Kenya: Audit (IG-10-12- A)                          9/28/2010            1                 -        1      -
    PC/HQ Volunteer Delivery System: Evaluation
                                                           11/6/2010            21                21       -      -
    (IG-11-01-E)
    PC/Ethiopia: Evaluation (IG-11-02-E)                   1/14/2011             6                3        1     2
    PC/Jamaica: Evaluation (IG-11-03-E)                    2/28/2011             1                1        -     -
    PC/Ethiopia: Audit (IG-11-02-A)                        2/15/2011             4                4        -     -
    PC/Belize: Audit (IG-11-04-A)                          3/14/2011             1                1        -     -
    PC/Mozambique: Audit (IG-11-05-A)                      3/31/2011             3                3        -     -
    PC/Ukraine: Audit (IG-11-06-A)                         3/31/2011             8                7        1     -
                                                                Total           84                71       8     5


6
 The sum of open recommendations in the Agency Concurrence columns equals the number in the Total Open
Recommendations column, i.e.) There are currently six open recommendations for the PC/Ethiopia Evaluation, of
which the agency concurred with three, non-concurred with one, and partially concurred with two.

        44                                                       Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL




Special Reviews

                              Open Recommendations More than 180 Days
                                                                                                               Agency
                                                                                                             Concurrence




                                                                                                             Concur



                                                                                                                             Partial
                                                                 Date         Total Open




                                                                                                                       Non
                         Report
                                                                Issued     Recommendations

    PC/Ecuador: Special Review (IG-10-05-SR)                   9/2/2010                  4                   4         -      -
                                                                   Total                 4                   4         -      -



                       Financial Statement and FISMA Recommendations 7
                                                                                  Agency
                                                                                Concurrence




                                                                                Concur



                                                                                                   Partial
                                                       Open




                                                                                             Non
                        Fiscal Year Issued
                                                  Recommendations

                      PC/HQ FY 2010 Financial Statement Audit (IG-11-00-A)
                        FY 2010                            4                    4            -      -
                        FY 2009                            3                    3            -      -
                        FY 2007                            3                    3            -      -
                        FY 2006                            1                    1            -      -
                        FY 2005                            1                    1            -      -
                        FY 2004                            2                    2            -      -
                                       Total               14                   14           -      -


                      PC/HQ FY 2010 Information Security Program Audit (IG-11-99-A)
                        FY 2010                            4                    4            -      -
                        FY 2009                            4                    4            -      -
                        FY 2008                            10                   10           -      -
                        FY 2007                            5                    5            -      -
                                       Total               23                   23           -      -

7
 All recommendations issued in conjunction with these two reports are part of a normal 12-month audit cycle. As a
result, recommendations made during a given fiscal year will remain in an open status during the entire subsequent
fiscal year. At the beginning of each new fiscal year, the auditors will notify management of whether sufficient
corrective actions have been taken regarding the prior year recommendations and issue their current notification of
findings and recommendations. Prior year findings and recommendations may be reissued if management has not
taken sufficient corrective actions.

April 1 to September 30, 2011                                                                                         45
6: Summary of Investigative Activities8

                                        Cases                                             Number            Value
    Cases Open as of 3/31/2011                                                              16
    Cases Opened during 4/1/2011 – 9/30/2011                                                 8
    Cases Closed during 4/1/2011 – 9/30/2011                                                 9
    Total Open Cases as of 10/1/2011                                                        15

                                     Case Referrals
    Referrals for Department of Justice for Prosecution                                       7
    Referrals for Agency Administrative Action                                                7
    Referrals to Other Agency                                                                 3

                               Domestic Court Actions
    Trial(s) Pending                                                                          1
    Convictions                                                                               0
    Acquittals                                                                                0
    Judgments                                                                                 0
    Fines/Restitution                                                                         0

                               Overseas Court Actions
    Ongoing Prosecutions                                                                      2
    Convictions                                                                               0
    Acquittals                                                                                0
    Judgments                                                                                 0
    Fines/Restitution                                                                         0

                                  Monetary Results
    Annual Savings                                                                           0
    Recoveries/Restitution                                                                $15,356
    Cost Avoidance                                                                           0

                          Agency Administrative Actions
    Employees (Resignations and Terminations)                                                 7
    Other Employee Actions                                                                    4
    Other Persons/Businesses                                                                  0
    Suspension/Debarment Referrals                                                            0




8
 For the purpose of reporting investigative activity, Volunteers/trainees are included under the categories of
―Referrals for Agency Administrative Action‖ and ―Agency Administrative Actions.‖

        46                                                           Semiannual Report to Congress
                               PEACE CORPS OFFICE OF INSPECTOR GENERAL


7: Summary of Hotline and Other Complaints

                                                                                                  Number
    Hotline Complaints Received                                                                     66
    Non-Hotline Complaints received9                                                                21
    Complaints Closed                                                                               87

    Awaiting OIG Action                                                                               0
    Resulted in Investigations                                                                       18
    Referred to Audits                                                                                1
    Referred to Evaluations                                                                           3
    Referred to Agency Management                                                                    2
    Referred to Other Agency                                                                         1
    No Action Needed                                                                                 62




9
 These complaints are largely as a result of outreach by OIG staff and were received by email, phone calls, and
conversations.

April 1 to September 30, 2011                                                                             47
8: References to Reporting Requirements of the Inspector General Act

  Act Reference                                 Reporting Requirements                            Page
 Section 4(a)(2)    Review of legislation and regulations                                          9
 Section 5(a)(1)    Significant problems, abuses, and deficiencies                                8-30
 Section 5(a)(2)    Significant recommendations for corrective actions                            8-30
                    Prior significant recommendations on which corrective action has not been
 Section 5(a)(3)                                                                                  44-45
                    completed
 Section 5(a)(4)    Matters referred to prosecuting authorities                                   32-37
 Section 5(a)(5)    Summary of instances where information was refused                             n/a
 Section 5(a)(6)    List of audit reports, including evaluations, inspections, and reviews         40
 Section 5(a)(7)    Summary of significant reports                                                20-30
 Section 5(a)(8)    Statistical table - questioned and unsupported costs                           42
 Section 5(a)(9)    Statistical table - funds to be put to better use                              43
 Section 5(a)(10)   Summary of previous audit reports without management decisions                 n/a
 Section 5(a)(11)   Significant revised management decisions                                       n/a
 Section 5(a)(12)   Significant management decisions with which the Inspector General disagrees    n/a
 Section 5(a)(13)   Information under Federal Financial Management Improvement Act of 1996         n/a




      48                                                                Semiannual Report to Congress
Appendices




PC/Panama Volunteer Alan McDonald stands in front of his community’s Peace Corps
Partnership Program (PCPP) funded aqueduct.
                                           Appendices
A: Reporting of Peer Reviews
Pursuant to Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
(Public Law No. 111-203),10 the Peace Corps OIG reports the following peer review
information:

During the reporting period, there was one peer review conducted of the Peace Corps OIG. The
Audit and Investigation Units are required to conduct peer reviews and be subject to a peer
review every three years.

Audit Unit

The U.S. Government Printing Office OIG reviewed the system of internal control for the OIG
Audit Unit for the period ending September 30, 2010. The Peace Corps OIG received a peer
review rating of pass. A rating of pass is issued when the review team concludes that the system
of quality control for the audit organization has been suitably designed and complied with to
provide OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. In its comment letter, the U.S.
Government Printing Office OIG issued findings that were not considered to be of sufficient
significance to affect the opinion expressed in that report. The Peace Corps OIG initiated action
to update its audit policies and procedures, enhance working paper documentation, and formalize
its process for overseeing independent public auditors. The System Review Report is available
on the OIG website:
http://multimedia.peacecorps.gov/multimedia/pdf/policies/Peer_Review_Opinion_Report_Final.pdf

In March 2008, The National Endowment for the Arts OIG conducted a peer review of the Audit
Unit of the Peace Corps OIG in effect for the year ending September 30, 2007. There were no
recommendations made.

Investigation Unit

The Investigation Unit is expected to undergo a peer review in early 2013. The Investigation
Unit was recently included in the Council of Inspectors General on Integrity and Efficiency
(CIGIE) peer review schedule after having been granted authority from the Attorney General to
exercise statutory law enforcement powers.

B: Contract Audit Reports
Pursuant to Section 845A of the National Defense Authorization Act for Fiscal Year 2008
(Public Law No. 110-181), the Peace Corps OIG reports final contract audit reports with
significant audit findings: During this reporting period, OIG did not issue any contract audit
reports.
10
 Section 989C of the Frank Wall Street Reform and Consumer Protection Act amends Section 5(a) of the Inspector
General Act of 1978 (5 U.S.C. App.)

      50                                                        Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL


C: IG Congressional Testimony

                       HOUSE COMMITTEE ON FOREIGN AFFAIRS

                            U.S. HOUSE OF REPRESENTATIVES

                      MAY 11, 2011, 9:30 A.M. – PEACE CORPS AT 50

                            TESTIMONY OF KATHY A. BULLER

                           PEACE CORPS INSPECTOR GENERAL


Madam Chairman Ros-Lehtinen, Ranking Member Berman, and distinguished members of the
Committee I thank you for inviting me to appear before you today. My testimony will outline
the Peace Corps OIG‘s role in providing oversight of the Peace Corps, particularly its safety and
security function. I will highlight the relevant work we have done and give my perspective on
the status of safety and security initiatives at the Peace Corps. I hope my testimony will shed
light on this important topic for the Peace Corps.

The Peace Corps OIG was established in 1989 after Congress amended the Inspector General
Act of 1978 to include smaller agencies. I became the Inspector General (IG) on May 25th, 2008.
In my role as the IG, I direct a small office of 20 employees composed of auditors, evaluators,
criminal investigators, legal counsel and support staff. I am fortunate to work with individuals
who have a broad range of skills and experiences, including seven returned Peace Corps
volunteers, and three former General Accountability Office (GAO) employees. All of them have
extensive private and public sector experiences. Last year our criminal investigators were
granted full statutory law enforcement powers by the Attorney General including the authority to
seek and execute search and arrest warrants, seize evidence, make arrests without a warrant
while engaged in official duties, and carry firearms.

Our mission is to prevent and detect fraud, waste, abuse, and other wrongdoing in agency
operations and programs as well as promote economy, efficiency and effectiveness. My office
serves as an independent oversight entity and my duty is to keep Congress and the Director fully
and currently informed about problems within the Peace Corps and the need for corrective
action. When my auditors and evaluators visit posts, our scope of work and methodology always
include a focus on volunteer safety and security.

My testimony explains how my office has integrated a focus on volunteer safety and security as
part of our regular evaluations and audits of Peace Corps posts, and summarizes two major work
products we conducted since 2008 to assess the effectiveness of the Peace Corps‘ overall safety
and security program. My testimony concludes with the status of the agency‘s progress to
reform its safety and security program. However, it is important to understand the nature of
Peace Corps safety and security challenges.


April 1 to September 30, 2011                                                            51
Peace Corps’ Safety and Security Challenges

The Peace Corps, like other international development agencies, is constantly mitigating safety
and security risks. With volunteers serving in 77 countries, the agency faces a range of
challenges that affect volunteer safety and security including: political unrest, natural disasters,
rising crime rates, terrorism threats, and the complexity of dealing with varying legal systems in
foreign jurisdictions. Unlike most other international agencies, however, the Peace Corps also
faces unique safety and security challenges that result from the fact that the majority of
volunteers serve at the grass roots level in rural communities, often in remote areas far from the
capital city and the Peace Corps office. They live and work with people of diverse cultural
backgrounds and languages. In short, the model of volunteerism that makes Peace Corps such a
compelling experience for its volunteers can at the same time make the agency‘s efforts to ensure
their safety a challenge.

Peace Corps‘ approach to safety and security is an ‗acceptance model‘ that requires volunteers to
integrate into their community so that local populations, including their host families, friends and
local counterparts support and protect them. To make the acceptance model work, the Peace
Corps must have a sound process for developing appropriate sites to place volunteers, as well as
solid safety and security-related training for volunteers.

Site development includes locating safe and adequate volunteer housing, finding meaningful
work for volunteers, ensuring that volunteers have host country counterparts who understand
their roles, and making certain that each host community wants a volunteer. As part of site
development, Peace Corps staff coordinate and liaise with local officials and communities. In
preparation for their service volunteers receive local language and cultural training that includes
understanding the nature of activities and behaviors that increase their risk of becoming ill or
being injured. The task of providing a safe and secure environment for our volunteers is a team
effort that does not solely depend upon safety and security personnel.

While the acceptance model places significant responsibilities on Peace Corps to ensure
volunteer safety, it also requires that volunteers take responsibility for their own safety. This
responsibility includes learning the language, adhering to the cultural norms of the community in
which they live, and avoiding situations that could increase their risk of becoming ill or being
injured.

The acceptance model has its limitations, but past GAO and recent OIG reports confirm it is the
most viable model for agencies like the Peace Corps that place volunteers in remote locations
and have a small security footprint. However, even with the best possible acceptance model in
place, volunteers face risks living, working, and traveling in unfamiliar environments, having a
limited (initially, at least) understanding of local languages and culture, and being perceived as a
well-off foreigner. While Peace Corps cannot eliminate these risks entirely, it can mitigate them
by having in place strong safety and security policies and procedures and implementing them
consistently.

Since fiscal year (FY) 2004, OIG has visited 66 posts and issued recommendations related to
safety and security at 56 of these posts (85 percent). Additionally, thirty-eight percent (25 out of

     52                                                   Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

66) of these posts were found to be deficient in some aspect of their site development, which is
an essential component of the acceptance model of safety and security. Inappropriate site
development increases the risk that a volunteer‘s community safety net will be compromised if a
threat arises.

How OIG Reviews of Overseas Posts Address Safety and Security Issues

OIG conducts audits and evaluations of overseas posts. These assess how effectively Peace
Corps overseas operations, including post staff, provide support to volunteers. We review
whether posts have adequate internal controls and whether they are complying with Peace Corps
policies, and federal laws and regulations.

OIG Post Evaluations

Our post evaluations assess how effectively the country program is furthering Peace Corps‘
mission and goals. We focus on whether volunteers are working productively, and on the quality
of posts‘ efforts to provide volunteers with good health care and personal safety training and
support. We examine volunteer work site development, the safety of volunteer housing; and the
quality of volunteer training, including language, technical, cross-cultural, health and safety and
security training. We assess the adequacy of support provided by post staff—leadership,
administrative, programming and training, medical, and safety and security staff members. Our
evaluators review whether volunteers understand the post‘s emergency action plan (EAP) and if
they know what to do in case of an emergency evacuation or other disaster. We speak with at
least 20 percent of currently-serving volunteers, visit their sites and inspect their homes using the
post‘s housing criteria. My evaluators also provide volunteers with information on OIG
resources, for example the OIG hotline and encourage volunteers to contact OIG about any
fraud, waste, abuse, misconduct, wrongdoing, or other related problems they encounter.
Volunteers are assured that we keep their identities confidential.

During our post evaluations, our evaluators also interview State Department regional security
officers (RSOs) at the local embassy to determine whether they are working well with the Peace
Corps posts. We also review any recommendations that might have been issued by Peace Corps‘
safety and security officers (PCSSO) in the region and whether the post has implemented those
recommendations.

OIG Post Audits

Our post audits focus on how efficiently and effectively the posts administrative and financial
operations are functioning. Our auditors review how post resources are utilized and whether
posts are complying with policies and regulations. In regards to safety and security, our auditors
interview the RSO to discuss any safety and security concerns. Further, auditors review whether
posts have obtained a background security investigation or suitability check on host country staff
before they are hired and whether the necessary update has been conducted. This has been one
of the most common safety and security issues identified during our audits, 44 percent (28 out of
63) of posts audited since 2004 did not comply. After the policy was revised in September 2009



April 1 to September 30, 2011                                                               53
to include short term contractors, OIG found that 73 percent of posts audited (11 out of 15) had
not met this requirement.

OIG Coordination with Chief Compliance Officer

For all of our audits and program evaluations there is a process of corrective action whereby we
coordinate with the agency to help ensure recommendations are implemented. Our work is
facilitated by the agency‘s chief compliance office. A new chief compliance officer was hired in
August of 2010; previously the position remained vacant for one year and seven months. The
chief compliance officer has helped close over 300 recommendations since she started.
However, as of May 2011; 205 recommendations remain open. At the post-level, 24 percent (22
out of 91) of open recommendations relate to safety and security issues. Implementing these
recommendations often requires extensive coordination across various offices, communicating
with field operations, revising or creating policy, and ensuring adequate resources for
implementation.

OIG Criminal Investigators

OIG criminal investigators look at whether Peace Corps staff, contractors, and volunteers have
violated any criminal laws and whether they have engaged in any misconduct. When OIG
criminal investigators conduct overseas investigations, they coordinate with the RSO and FBI
legal attaché, and, when appropriate, local host country law enforcement. OIG responded to
cases of violent crime against volunteers serving overseas from 2003 to 2008. In 2008 that
function was transferred back to the agency because it was determined that safety and security is
a program function outside the mandate of the IG Act, as amended. However, we continue to
conduct investigations of any crime where a Peace Corps staff member, contractor or volunteer
is alleged to have been the perpetrator. We view those cases as misconduct and abuse squarely
within OIG‘s mandate. In addition, we conduct inquiries, as appropriate, related to volunteer
deaths and provide oversight over agency responses to volunteer deaths.

Other OIG Responses to Safety and Security of Volunteers

Our office is engaged in a broad range of outreach activities in support of Peace Corps‘ policy on
handling allegations against Peace Corps staff, contractors, and volunteers. In the aftermath of
the murder of volunteer Kate Puzey in 2009, the agency issued an interim policy on how to
handle sensitive allegations against staff and contractors. Longstanding OIG and Peace Corps
policy already provided volunteers the ability to report allegations confidentially to OIG. The
interim policy focused on:

       The need for Peace Corps staff to treat allegations confidentially.
       Informing volunteers of their right to report allegations to OIG confidentially and encouraging
       them to so.
       Ensuring the safety and security of the volunteer making an allegation.
       Reminding staff of their obligations to report allegations to OIG.
       Assuring volunteers that agency policy prohibits reprisal or retaliation.



     54                                                     Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL

In January 2011 the interim policy was formalized as a Peace Corps Manual section. My staff
worked with the agency to develop a training module on complying with this policy.
Subsequently we participated in three training sessions for new overseas staff on the policy. We
have worked with the agency to ensure the policy is included in the Volunteer Handbook. I have
communicated directly with country directors (CDs) on the importance of reporting allegations
to OIG and maintaining the confidentiality of those making the allegations. I have also provided
CDs with OIG materials and posters to distribute and display at posts overseas to inform both
staff and volunteers of the mission of the OIG and how to contact us to forward allegations or
concerns related to waste, fraud and abuse in Peace Corps programs and operations.

In addition, we are currently conducting an evaluation on how the agency responds to instances
of rape and sexual assault in response to the ABC News 20/20 television episode related to
allegations of sexual assault of Peace Corps volunteers. We hope to issue a preliminary report
by mid-summer.

Peace Corps’ Office of Safety and Security and Related Reforms since 2002

Madam Chairman, I would like to briefly provide some background on the Peace Corps
volunteer safety and security program. In 2002, at the request of Congressman Meehan and
Congresswomen McKinney, GAO conducted a review and issued a report of the Peace Corps
safety and security program. The report identified several weaknesses including that the safety
and security program was unevenly implemented. The following factors contributed to this
uneven implementation: unclear guidance, inadequate staff training, spotty supervision and
oversight mechanisms, and staff turnover. GAO outlined how the Peace Corps provides broad
guidance to support overseas posts but relies on CDs to develop and implement effective safety
and security practices.

The GAO report also stated that while volunteers were generally satisfied with the Peace Corps‘
efforts to provide security training and inform them about their security environments, the Peace
Corps showed mixed performance in developing safe and secure housing and work sites for
volunteers. The report also mentioned the uneven quality and comprehensiveness of Peace
Corps Emergency Action Plans (EAPs), which are required by each post and address emergency
situations that would likely impact Peace Corps personnel and operations.

The GAO report further noted a variation in how Peace Corps monitors and responds to
volunteer concerns. For instance, while crime incidents had increased, the full extent of crimes
against volunteers remained unknown due to underreporting. GAO also noted that it was
difficult to interpret Peace Corps‘ sexual assault data and that the crime data analysis system
could be enhanced. At the time of the GAO report, the Office of Medical Services collected
information on assaults and produced analyses of violent crime incidences.

The agency‘s response to the GAO report detailed a number of significant improvements to the
way the Peace Corps manages volunteer safety and security. The agency stated that it would
create an Office of Safety and Security (SS) ―to foster improved communication, coordination,
oversight, and accountability for all Peace Corps safety and security efforts.‖ The office would
be led by an associate director for safety and security, who would report directly to the Peace

April 1 to September 30, 2011                                                            55
Corps Director, and the office would include the following divisions: Volunteer Safety and
Overseas Security; Information and Personnel Security; and Emergency Preparedness Plans,
Training, and Exercises. The office would also include a Crime Statistics and Analysis Unit to
track crime statistics, identify crime trends, and highlight potential safety risks to volunteers.

In addition, the agency stated that it would authorize all of its overseas posts to employ a full or
part-time safety and security coordinator (SSC) and added three new full-time safety and security
desk officer positions, one for each region, and four additional field-based Peace Corps safety
and security officers (PCSSOs). Furthermore, Peace Corps stated that it would revise its policies
to require posts to implement the following six essential safety and security practices:

       Monitor, assess, and disseminate safety and security information to volunteers and trainees
       Continually train volunteers and trainees on culturally appropriate lifestyles and judgment that
       reduces risks
       Inspect volunteer and trainee work sites before their arrival to ensure housing and work sites are
       appropriate, safe, and secure
       Establish procedures for reporting safety and security incidents
       Develop and test EAPs
       Establish a system to collect contact and whereabouts information from volunteers when they are
       away from their communities

As stated in the agency‘s response, the primary responsibility for SSCs was to monitor and
ensure that their post complied with these practices.

OIG Volunteer Safety and Security Audit and Evaluation Reports

More recently, my office issued both an evaluation report in 2008 and an audit report in 2010
focused on the agency‘s overall volunteer safety and security program. Both reports found that
the security program has evolved significantly since the 2002 GAO report, and that the agency
has made substantial progress in addressing its safety and security needs, e.g. establishing the
office of safety and security, assigning SSCs to each overseas post, hiring nine regional based
PCSSOs, and revising its safety and security policies. Yet both our 2010 audit and 2008
evaluation concluded that safety and security policies, procedures, practices, training, and
resources were unevenly or inadequately applied.

2008 Safety and Security Evaluation

The safety and security program evaluation issued in 2008 assessed the effectiveness of the six
safety and security practices implemented after the 2002 GAO report. Our evaluation contained
20 recommendations; six remain open today. Below are some of the most salient findings
included in the report:

       The agency crime data was unreliable and not reported to headquarters in a timely manner. Staff
       did not have adequate training on the agency‘s new crime reporting tool.
       Although volunteers were provided with information about global safety and security risk factors,
       they were not provided country-specific risk factors.


     56                                                     Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL

       EAPs did not always contain essential information to facilitate volunteers‘ speedy and safe
       consolidation or evacuation from their country of service.
       Peace Corps did not ensure that emergency action plans were consistently tested in accordance
       with agency policy or under realistic conditions (e.g., in the absence of cell phones.)
       Forms that could be used to locate volunteers‘ sites in emergency situations were not always fully
       completed or accurate.
       PCSSOs had provided posts with substantial support; however, their recommendations were not
       systematically tracked and were often not implemented.
        Volunteers‘ houses did not always meet the posts‘ own criteria for safe housing.

At the end of March 2011, the agency submitted documentation to close the remaining six open
recommendations. Of the six recommendations, the agency did not concur with one and partially
concurred with three. Given that many safety and security practices have evolved since we
issued the report in 2008, and that some of the recommendations require a global change in how
SS does its work, my office wants to be sure that the action taken meets the intent of the
recommendation before we can close them.

2010 Safety and Security Audit

Our audit report, issued in April of 2010, focused on the management and organization of the
safety and security function at Peace Corps. Consistent with past reports, we found in 2010 that
volunteers overwhelmingly state being satisfied with their level of safety and security and staff
support. Moreover, we found that while Peace Corps maintains a much larger safety and
security workforce than comparable international non-governmental organizations, safety and
security staff at all levels lacked the experience and training needed to perform their jobs.

In addition, our report found that the security program lacked essential elements and did not keep
up with the changing needs of the overseas posts because the volunteer safety and security
program did not have a clear management structure, and no office accepted complete ownership
of it. The audit also found that SS served as a consultative office, not an oversight office. This
has resulted in SS relying on the Peace Corps‘ overseas posts to request its assistance and any
recommendations from SS for safety and security improvements to be treated as suggestions.
Furthermore, the audit determined that organizational structures and personnel practices have not
matched the agency‘s shift in safety and security roles and responsibilities, causing confusion
and inconsistencies in the program.

Specifically, the report found that the agency had not:

       Developed a comprehensive security strategy and plan that articulated how the agency‘s
       security policies related to the acceptance model.
       Directed the SS office to provide management and oversight of the safety and security
       program, including SSCs at posts.
       Aligned safety and security personnel‘s roles and responsibilities with the agency‘s stated
       priority of safety and security. We found that unclear lines of authority and
       communication created a weak safety and security structure and organization –
       insufficient input overall on agency operations and lack of oversight of post budget and
       operations. Essentially, regions and CDs, not SS, the office established to oversee and

April 1 to September 30, 2011                                                                   57
       implement the Peace Corps safety and security program, drive safety and security
       priorities.
       Defined the skills and experience needed for all security positions; provided consistent
       training and development tracks that matched responsibilities; and developed standard
       operating procedures for performing duties.
       Consistently hired people with the skills and experience to fill its safety and security
       positions – including the SSCs at the posts and the regionally-based PCSSOs.
       Clearly defined the roles of headquarters safety and security staff and field safety and
       security staff to avoid unclear expectations and duplicate responsibilities.
       Standardized training for safety and security personnel.
       Consistently tracked and ensured that corrective action on PCSSO recommendations
       were taken.

All of these findings point to a volunteer safety and security program which has not been
implemented evenly, increasing potential risks to volunteers. Since FY 2004 OIG issued
recommendations related to staff roles, responsibilities and training at 23 percent of posts visited
(15 out of 66).

Since the issuance of our 2010 audit report, the Peace Corps has taken important steps to close
recommendations and improve its safety and security program. The more significant steps
include:

       July 2010 – the Director issued a decision memorandum announcing that the SS would assume
       responsibility for technical oversight of the positions of safety and security coordinator and safety
       and security desk officer.
       September 2010 – SS defined training requirements for PCSSOs and SSCs. SS provided training
       for the safety and security personnel at its biannual conference.
       December 2010– Peace Corps reissued several Peace Corps Manual sections to include the
       revised safety and security roles and responsibilities.
       February and March 2011 – Peace Corps developed the ―Peace Corps‘ Safety and Security
       Strategy‖, Before You Go… [the Volunteer Safety and Security Handbook] and standard
       operating procedures for safety and security personnel. In addition, the agency issued revised
       Peace Corps Staff Guidelines for Responding to Rape and Major Sexual Assault, and required
       that staff training on the new guidelines be performed at every Peace Corps post.
       In addition, SS increased its oversight function by developing a process to verify whether
       required security background investigations and suitability checks for personal services
       contractors have been performed.

Despite the agency‘s substantial progress in reforming its safety and security program, my
primary concerns continue to revolve around uneven implementation. Our post audits and
evaluations have indicated that posts have not been fully compliant with essential safety and
security policies despite the numerous positions established to ensure and track implementation
of these policies. Unclear procedures lead to potentially serious gaps in the safety and security
process. We have found situations in which responses to crimes were inadequate and incomplete
because staff roles were not clearly defined and communicated. Poorly defined staff
responsibilities and unclear lines of authorities only increase risk to our volunteers when a timely
and competent response by agency personnel is needed.

     58                                                       Semiannual Report to Congress
                          PEACE CORPS OFFICE OF INSPECTOR GENERAL



In our view a memorandum of understanding (MOU) to formalize the relationship between the
State Department and the Peace Corps is a critical step to improving the agency‘s capacity to
effectively respond to security situations. The MOU would define the roles and responsibilities
of both agencies in supporting volunteer safety and security overseas and would serve as an
essential protocol for adequately responding to volunteer safety and security incidents.

To date the agency has provided sufficient information to close 23 of 28 recommendations from
our 2010 safety and security audit. We continue to collaborate closely with agency management,
provide needed clarifications and comments to its proposed actions, as well as general advice
with the aim of closing all remaining open safety and security recommendations. Closing the
recommendations is an important step but it is not sufficient in and of itself. The agency will
need to monitor the safety and security program to ensure the changes take hold. I believe that
the successful implementation of these recommendations will depend in large part on whether SS
functions as the management and oversight office it was intended to be, rather than a consultative
office for overseas posts, providing assistance and suggestions when requested. For our part we
plan to conduct a follow-up review on the effectiveness of implementing these measures in FY
2012.

Conclusion

The Peace Corps has a decentralized organizational structure in which top management relies
primarily on CDs and their staff to manage programs and operations overseas, including its
safety and security program. This model must have clear lines of communication, well
established policies and procedures, and adequate management oversight functions at
headquarters to ensure overseas posts are efficient and effective. In this regard, our audits and
evaluations continue to highlight areas where management oversight is lacking and standard
operating procedures are not in place. As a result, there is a lot of disparity among posts due to
the quality and expertise of staff members and their ability to develop their own methods of
managing safety and security challenges.

While some important OIG recommendations remain open, the agency has made substantial
progress in recent years in developing a comprehensive safety and security program. Director
Williams has pledged his full support to remediate all safety and security related findings and we
are working with agency management to help ensure critical recommendations are implemented.
The agency has shared drafts of their overall security strategy, revised policies, and developed a
proposed memorandum of understanding with the State Department.

In conclusion Madam Chairman, putting in place a more effective Peace Corps volunteer safety
and security function will require continued vigilance, prioritization of initiatives, greater
accountability and management oversight, more emphasis on hiring and retaining quality
security professionals, adequate financial and training resources, a focus on implementation, and
greater coordination with other agencies like the State Department. While follow-through on
these items and our recommendations will be challenging, it is necessary to ensure Peace Corps‘
sustainability for the next 50 years.



April 1 to September 30, 2011                                                              59
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900
PAGE INTENTIONALLY LEFT BLANK
